                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A02050031                                                                     Page 1 of 1



      On May 14,2002, we received an allegation that a mathematician (Subject') submitted an NSF
      proposal2containing material copied directly from a paper published in a conference
      proceedings3.The matter was opened for inquiry on May 29.

      We compared the two documents and determined that the first two pages of the conference
      paper, together with all twenty-one references in the bibliography, were copied directly into the
      proposal. Subject is not listed as a co-author on the conference paper, none of the co-authors are
      listed as collaborators in the proposal, and the paper is not included in the References section of
      the proposal.

      In a letter dated June 20,2002, we asked Subject to respond to questions about his treatment of
      sources. Subject was out of the country and replied on September 10. Subject explained that the
      material in question was taken from a proposal he submitted through his previous university4.
      Subject asked his former undergraduate research team to write the introductory material, which
      concerned biology. Subject accepted responsibility for the plagiarized introduction and
      acknowledged that he should have checked this material more carefully before submitting his
      proposals.

      Having reviewed the evidence, we accepted Subject's explanation and decided not to pursue this
      matter further. We note that both proposals were declined and that Subject's most recent
      proposal does not contain the questioned material.

      This case is closed and no m h e r action will be taken.




                       Investigator              Attorney                Supervisor                    AIGI

  Sign / date

                                                                                        NSF OIG Form 2 (1 1/02)
